                                                        U.S. Department of Justice


                                                        United States Attorney
                                                        District of Maryland


Thomas M. DiBiagio                                      6625 United States Courthouse                  410-209-4800
United States Attorney                                  101 West Lombard Street              TTY/TDD:410-962-4462
                                                        Baltimore, Maryland 21201-2692                 410-209-4885
Vickie E. LeDuc                                                                                    FAX 410-962-3091
Public Information Officer                                                                   Vickie.LeDuc@usdoj.gov




MAY 7, 2004
FOR IMMEDIATE RELEASE                                              FOR FURTHER
                                                                   INFORMATION CONTACT
                                                                   VICKIE E. LEDUC, AUSA
                                                                   410-209-4885


                   FORMER COMMERCIAL AIRLINE PILOT PLEADS GUILTY
                        TO FALSIFYING MEDICAL CERTIFICATES

          BALTIMORE, Maryland - Thomas M. DiBiagio, United States Attorney for the District of

Maryland, announced that Reza Ostadali, age 41, of Forest Hill, Maryland, plead guilty today to

using a false document, in connection with the indictment charging Ostadali with using false

documentation on five separate occasions in a matter within the jurisdiction of the Federal Aviation

Administration (FAA).

          In a statement of facts provided to the court as part of the plea agreement, Ostaldi admitted

that during all times relevant to the indictment, he was employed as a commercial airline pilot for

Allegheny Airlines. The FAA requires that airline pilots submit a “Medical Certificate First Class”

periodically to certify examinations by a physician. Ostadali submitted five separate certificates

which stated that he had been examined by Dr. John B. Umhau on April 1, 2000; November 1, 2000;

June 1, 2001; January 1, 2002; and August 1, 2002. In fact, Ostadali knew that Dr. Umhau had not

examined him on those dates, and had last examined Ostadali in October 1996.

           Ostadali faces a maximum sentence of five years of imprisonment, three years of supervised
release, and a $250,000 fine. United States District Judge J. Frederick Motz has scheduled

sentencing for June 28, 2004 at 9:00 a.m.

       The case is a result of an investigation by the Department of Transportation’s Office of

Inspector General. The case was prosecuted by Assistant U.S. Attorney Stephanie A. Gallagher.



                                              2
